Semiannual Report to Congress
October 1, 2012 – March 31, 2013



                                              May 2013




   Federal Election Commission - Office of Inspector General
          999 E Street, N.W. Suite 940, Washington, D.C. 20463
October 1, 2012 - March 31, 2013




                                 FEDERAL ELECTION COMMISSION
                                 WASHINGTON, D.C. 20463




           OFFICE OF THE CHAIR
                                                                    May 20, 2013

                The Honorable John A. Boehner
                Speaker of the House of Representatives
                Washington, D.C. 20515

                Dear Mr. Speaker:

                        Pursuant to the Inspector General Act of 1978, as amended, the Federal Election
                Commission submits the Office of Inspector General’s Semiannual Report to Congress. The
                report summarizes the activity of the FEC Office of Inspector General (“OIG”) from October 1,
                2012 through March 31, 2013. During this reporting period, the FEC’s Inspector General
                completed, with the assistance of contract auditors, the annual audit of the FEC’s financial
                statements.

                         We are pleased to report that the Commission received an unqualified (or clean) opinion
                on the required statements: the FEC’s Balance Sheet as of September 30, 2012, and the related
                Statements of Net Costs, Changes in Net Position, Budgetary Resources, and Custodial Activity
                for the year then ended. This marks the fourth consecutive year with no material weaknesses
                identified. The auditors nonetheless provided nine findings. The response of FEC management
                to the issues noted by the auditors appears in the report, which was issued on November 15,
                2012.

                        During the semiannual period, the OIG also completed its Review of Outstanding Audit
                Recommendations, which was released in January 2013, and completed, with the assistance of
                contract auditors, an inspection of the FEC’s disaster recovery and continuity of operations
                plans. The inspection report was released in January 2013 and identified 14 findings.
                Management’s responses to the findings and recommendations are discussed in detail in that
                inspection report.

                        The Commission appreciates and shares the Inspector General’s commitment to sound
                financial and management practices, and looks forward to continuing its cooperative working
                relationship as management takes appropriate measures to improve operations of the
                Commission. Copies of the Semiannual Report to Congress are being provided to the Chairmen
                and Ranking Members of the FEC’s oversight committees.

                                                                    On behalf of the Commission,



                                                                    Ellen L. Weintraub
                                                                    Chair
                Enclosure




                                                                                                                   i
                                                                   Office of Inspector General Semiannual Report to Congress




                                        MANAGEMENT REPORT ON
                                  INSPECTOR GENERAL ISSUED REPORTS
                                        WITH QUESTIONED COSTS
                            FOR THE SIX-MONTH PERIOD ENDING MARCH 30, 2013



                                                       Number of        Questioned     Unsupported
                                                        Reports           Costs           Costs

     A. Reports for which no management decision
        has been made by commencement of the
        reporting period                                   0                 0               [0]


     B. Reports issued during the reporting period         0                 0               [0]


        Subtotals (A + B)                                  0                 0               [0]


     C. Reports for which a management decision
        was made during the reporting period               0                 0               [0]


        (i) Dollar value of disallowed costs               0                 0               [0]


        (ii) Dollar value of costs not disallowed          0                 0               [0]


     D. Reports for which no management decision has
        been made by the end of the reporting period       0                 0               [0]


     E. Reports for which no management decision
        was made within six months of issuance             0                 0               [0]




ii
October 1, 2012 - March 31, 2013




                                                      MANAGEMENT REPORT ON
                                             INSPECTOR GENERAL ISSUED REPORTS WITH
                                          RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
                                          FOR THE SIX-MONTH PERIOD ENDING MARCH 30, 2013



                                                                           Number of       Funds to be Put
                                                                            Reports        To Better Use

                     A. Reports for which no management decision
                        has been made by the commencement
                        of the reporting period                                0                 0


                     B. Reports issued during the reporting period              0                0


                     C. Reports for which a management decision
                        was made during the reporting period                    0                0


                        (i) Dollar value of recommendations that were
                            agreed to by management                             0                0

                         - Based on proposed management action                  0                0

                         - Based on proposed legislative action                 0                0


                        (ii) Dollar value of recommendations that were
                             not agreed to by management                        0                0


                     D. Reports for which no management decision
                        has been made by the end of the reporting period        0                0


                     E. Reports for which no management decision
                        was made within six months of issuance                  0                0




                                                                                                             iii
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




iv
October 1, 2012 - March 31, 2013




                                   FEDERAL ELECTION COMMISSION
                                   WASHINGTON, D.C. 20463
                                   Office of Inspector General



                              A Message from the Inspector General


                During this reporting period, the Office of Inspector General (OIG) completed another
                year’s audit of the Federal Election Commission’s (FEC) financial statements.
                Congratulations are due to the FEC for again receiving a clean opinion and completing all
                outstanding financial related recommendations. It is hoped that this next year will see the
                agency make additional progress on the remaining outstanding recommendations which
                deal with the Information Technology Division (ITD).

                We are also currently conducting an audit and inspection of two areas that have
                significance for all FEC employees, the Human Resources Division and the Equal
                Employment Office. These are two areas of the Commission that have the potential to
                reach and/or affect every staff person. The results of these two projects will be detailed
                in the next semiannual report. I am confident that the results of these projects will provide
                opportunities for improvement in serving the FEC staff.

                As always, I would like to thank the OIG staff and the dedication they show in the work
                they accomplish. These staff members perform a variety of duties outside of their
                specialties and these efforts enable the OIG to provide a much wider area of coverage to
                the FEC and its various programs. Their dedication and willingness to “do what it takes”
                to get the job done correctly and fulfill the mission of the OIG is to be commended.




                Lynne A. McFarland
                Inspector General
                Federal Election Commission

                April 26, 2013




                                                                                                                v
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




vi
October 1, 2012 - March 31, 2013




                                                        Table of Contents



      Executive Summary                                                                 1
      The Federal Election Commission                                                   3
      Office of Inspector General                                                       4
      OIG Audit Activity                                                                5
      OIG Audit Follow-up Activity                                                      7
      OIG Inspections                                                                   8
      OIG Hotline Information                                                          10
      OIG Investigations                                                               12
      Additional OIG Activity                                                          13
      Council of the Inspectors General on Integrity and Efficiency (CIGIE) Activity   14
      OIG Contacts                                                                     15
      List of Training, Meetings and Conferences Attended by OIG Staff                 16
      Reporting Requirements                                                           18
      Table I – Questioned Cost                                                        19
      Table II – Funds Put To Better Use                                               20
      Table III – Summary Of Audit And Inspection Reports With                         21
                  Corrective Actions Outstanding For More Than Six Months
      Appendix A: OIG Fiscal Year 2013 Work Plan                                       23




                                                                                            vii
                     Office of Inspector General Semiannual Report to Congress




This Page Intentionally Left Blank
October 1, 2012 - March 31, 2013




                                                              Executive Summary



 The Inspector General Act of 1978 (the IG Act), as       improvements needed in the FEC’s information tech-
 amended, states that the Inspector General is re-        nology security. For detailed information pertaining
 sponsible for conducting audits, inspections, investi-   to the Audit of the FEC’s Fiscal Year 2012 Financial
 gations, and recommending policies and procedures        Statements, as well as an audit of the FEC’s Office
 that promote economy, efficiency, and effectiveness      of Human Resources currently in progress, see the
 of agency resources and programs, and to prevent         section entitled OIG Audit Activity (starting on page
 fraud, waste, abuse, and mismanagement. The              5).
 IG Act also requires the Inspector General to keep
 the Commission and Congress fully and currently          The OIG conducted follow-up work for prior audits
 informed about problems and deficiencies in the          with outstanding audit recommendations. In order
 Commission’s operations and the need for corrective      to ensure audit recommendations are being imple-
 action.                                                  mented in a timely manner, the OIG revised its audit
                                                          follow-up process to include conducting quarterly
 The executive summary highlights the most signifi-       status meetings with management and providing
 cant activities of the Federal Election Commission       semiannual reports on the follow-up results to the
 (FEC) Office of Inspector General (OIG). Additional
                                                          Commission. During this reporting period we re-
 details pertaining to each OIG activity (i.e. audits,
                                                          leased a report titled Review of Outstanding Audit
 hotline, and investigations) can be found in subse-
                                                          Recommendations as of December 2012 (OIG-13-
 quent sections of this report. The diligent work, out-
                                                          01). The report covered five (5) audits totaling 127
 standing efforts, and many contributions of our entire
                                                          outstanding audit recommendations. For details re-
 OIG staff make the major accomplishments of the
                                                          garding the OIG’s audit follow-up work, see the sec-
 OIG possible.
                                                          tion entitled OIG Audit Follow-up Activity (starting
 In November 2012, the OIG completed the Audit            on page 7).
 of the FEC’s Fiscal Year 2012 Financial Statements
 (OIG-12-03). The OIG exercised another option year       The OIG procured contract services to conduct an
 with Leon Snead & Co. (LSC) to conduct the FEC’s         inspection of the FEC’s disaster recovery plan (DRP)
 annual financial statement audit in accordance with      and continuity of operations plans (COOP). On
 generally accepted auditing standards. The audit         September 26, 2012, Brown & Company (Brown)
 was conducted in four phases: Planning; Review           was awarded the contract to conduct the inspec-
 and Evaluation; Testing; and Reporting. In addi-         tion under the supervision of the OIG, and in accor-
 tion, the OIG provided assistance to LSC in gather-      dance with the Council of the Inspectors General on
 ing data regarding current active employees/con-         Integrity and Efficiency (CIGIE) Quality Standards
 tractors, as well as researching guidance to verify if   for Inspections and Evaluations, January 2011.
 Office of Management and Budget (OMB) M-09-32:           Brown performed several inspection steps to include:
 Trusted Internet Connections is applicable to the        1) physical walkthroughs of the FEC’s disaster re-
 FEC. The FEC received an unqualified (clean) audit       covery facilities; 2) reviewing documentation related
 opinion. The final audit report, released November       to the COOPs for each FEC office/division; 3) review
 15, 2012, contained nine (9) findings and thirty-two     of the FEC’s disaster recovery plan; and 4) inter-
 (32) recommendations, all of which were related to       views with FEC staff who were identified as having a


                                                                                                              1
                                                       Office of Inspector General Semiannual Report to Congress




significant role in executing the FEC’s COOPs and/
or DRP.

The final DRP and COOP inspection report, re-
leased January 30, 2013 contained 14 findings and
30 recommendations for improvement. For details
regarding this and other OIG inspections in prog-
ress, see the section entitled OIG Inspections
(starting on page 8).

In addition to the OIG’s audit and inspection work,
there was activity during the reporting period on
hotline and investigative matters. During this semi-
annual reporting period, three (3) new hotline
complaints were opened and three (3) hotline com-
plaints were closed. Regarding OIG investigations
– the OIG currently has one (1) open investigation.
For details regarding the OIG’s hotline complaints
and investigations, see the sections entitled OIG
Hotline Information (starting on page 10) and OIG
Investigations (starting on page 12).




2
October 1, 2012 - March 31, 2013




                             The federal election commission



                                         In 1975, Congress created the Federal Election
                                         Commission to administer and enforce the Federal
                                         Election Campaign Act (FECA). The duties of the
                                         FEC, an independent regulatory agency, are to dis-
                                         close campaign finance information; enforce the pro-
                                         visions of the law; and oversee the public funding of
                                         Presidential elections.

                                         The Commission consists of six members who
                                         are appointed by the President and confirmed
                                         by the Senate. Each member serves a six-year
                                         term, and two seats are subject to appointment
                                         every two years. By law, no more than three
                                         Commissioners can be members of the same
                                         political party, and at least four votes are re-
                                         quired for any official Commission action. The
                                         Chairmanship of the Commission rotates among
                                         the members each year, with no member serv-
                                         ing as Chairman more than once during his or her
                                         term. Currently the FEC’s Commissioners include –
                                         Ellen L. Weintraub, Chair; Donald F. McGahn II, Vice
                                         Chairman; and Commissioners Caroline C. Hunter;
                                         Matthew S. Petersen; and Steven T. Walther. Former
                                         Commissioner Cynthia L. Bauerly resigned from the
                                         FEC in February 2013 and a replacement has not
                                         been nominated by the President.




                                                                                             3
                Office of Inspector General Semiannual Report to Congress




    Office of Inspector General.



            The Inspector General Act of 1978 (P.L. 100-504),
            as amended, states that the Inspector General is re-
            sponsible for: 1) conducting and supervising audits
            and investigations relating to the Federal Election
            Commission’s programs and operations; 2) de-
            tecting and preventing fraud, waste, and abuse of
            agency programs and operations while providing
            leadership and coordination; 3) recommending poli-
            cies designed to promote economy, efficiency, and
            effectiveness of the establishment; and 4) keeping
            the Commission and Congress fully and currently
            informed about problems and deficiencies in FEC
            agency programs and operations, and the need for
            corrective action.




4
October 1, 2012 - March 31, 2013




                                                               OIG Audit Activity



 Audit of the FEC’s Fiscal Year 2012 Financial            In addition to completing the standard auditing steps,
 Statements                                               during the testing phase, the OIG provided assis-
                                                          tance to LSC in gathering data regarding current
 Assignment Number:         OIG-12-03                     active employees/contractors, as well as research-
 Status:   Released November 2012                         ing guidance to verify if OMB M-09-32: Trusted
                                                          Internet Connections is applicable to the FEC. In
 http://www.fec.gov/fecig/documents/                      addition, the auditors met with the Chair and Vice
 FY12FinancialStatementAuditReport.pdf                    Chair of the Commission to fulfill the requirements of
                                                          SAS 114: Communication with Those Charged with
 The Office of Inspector General (OIG) exercised an-      Governance. The auditors provided the FEC Chair
 other option year with Leon Snead & Co. (LSC) to         and Vice Chair with an explanation of their audit role
 conduct the Federal Election Commission’s (FEC)          and responsibilities and an update regarding the
 annual financial statement audit in accordance with      progress of the audit.
 generally accepted auditing standards. The en-
 trance conference was held on May 8, 2012 and            During the reporting phase, LSC issued nine (9) no-
 audit fieldwork commenced on May 18, 2012. During        tices of findings and recommendations (NFRs). All
 the audit, bi-weekly status meetings were held with      nine (9) findings were related to deficiencies in infor-
 the auditors and FEC management to discuss au-           mation technology controls. Management reviewed
                                                          the NFRs and provided written responses to LSC.
 dit issues and provide a status update of the audit
                                                          The exit conference for the audit was held November
 progress.
                                                          13, 2012. The final report, released November 15,
                                                          2012, contained nine (9) findings and 32 recommen-
 The audit was conducted in four phases: Planning;
                                                          dations. Among the nine findings were the follow-
 Review and Evaluation; Testing; and Reporting. The
                                                          ing: (1) FEC's computer access controls (i.e. pass-
 planning phase consisted of LSC briefing the OIG
                                                          words) do not meet best practice controls, and in
 on any changes to the audit plan from the prior year,
                                                          some instances FEC's internal policies; (2) FEC has
 new or additional audit steps included in the audit      not timely implemented actions necessary to reme-
 plan, and any changes made due to new require-           diate identified weaknesses in IT controls, some of
 ments or audit standards for the 2012 financial state-   which were first reported in 2008; and (3) FEC has
 ment audit.                                              not developed an effective process to periodically
                                                          review user access authorities by the users' supervi-
 During the review and evaluation phase, LSC fol-         sors. Without periodically performing a review of user
 lowed up with management regarding the status of         access authorities, FEC officials do not have assur-
 prior year findings and recommendations. LSC’s re-       ance that users only have access to information and
 view of prior year findings concluded that five (5) of   information systems that are necessary to accom-
 the 20 prior audit recommendations were properly         plish job responsibilities.
 implemented. Further, LSC reviewed FEC’s compli-
 ance with applicable laws and regulations, and the       The FEC received an unqualified (clean) audit opin-
 existence and effectiveness of internal controls.        ion on their financial statements.



                                                                                                                5
                                                            Office of Inspector General Semiannual Report to Congress




Audit of the Federal Election Commission’s              OIG testing concentrated on several processes, in
Office of Human Resources (OHR)                         particular, HR on Demand (which was implemented
                                                        by OHR to track and monitor employee inquiries,
Assignment Number:      OIG-12-05                       recruitment & selection, and performance manage-
Status:   In Progress                                   ment). The purpose of the testing was to ensure
                                                        that the processes are properly designed, operat-
The Audit of the FEC’s Office of Human Resources        ing effectively, and adhere to current policies, labor
(OHR) commenced during the last reporting peri-         regulations, and/or guidance. Testing was completed
od. The OHR is a critical component of the agency       at the end of March 2013 and the OIG briefed man-
and is responsible for several important functions      agement on the potential audit findings. The OIG
including: recruitment and retention of qualified       will issue formal notices of findings and recommen-
staff; employee-employer relations; administration      dations (NFRs) to FEC management and begin the
of employee benefits; maintenance and process-          audit report process. The audit of the FEC’s Office
ing of personnel records; and training, among other     of Human Resources is expected to be completed
responsibilities.                                       during the next reporting period.

The primary objectives of the audit are to: 1) assess
the OHR customer service level and identify areas
for improvement, where warranted; 2) assess the ef-
ficient and effective use of automated processes for
human resource functions; and 3) assess whether
OHR has adequate policies that are up to date to
govern all HR related functions. Determine if ad-
ditional policies are needed and/or need updating.
The OIG held an entrance conference on July 5,
2012 to discuss the preliminary scope for the audit
and provide management with an understanding of
the purpose of the audit. As part of the customer
service assessment, the audit included an agency-
wide survey of FEC staff to seek feedback on their
satisfaction level of service provided by the FEC HR
Office. The OIG launched the survey agency-wide
on September 14, 2012; the results of the survey
were shared with OHR (employee names and other
identifying information were not provided to OHR)
and utilized to help the OIG determine the areas to
concentrate audit testing.

Based on the survey conducted and information
obtained during the planning phase of the audit,



6
October 1, 2012 - March 31, 2013




                                    OIG Audit Follow-up Activity



 Review of Outstanding Audit                             Beneﬁt Program; Audit of the Commission’s Property
 Recommendations                                         Management Controls; and Inspection of the FEC’s
 (as of December 2012)                                   Kastle Key Program). Subsequent to the release of
                                                         the December 2012 Review of Outstanding Audit
                                                         Recommendations report, the OIG met with the
 Assignment Number:         OIG-13-01
                                                         Director of Procurement during the quarter end-
 Status:   Released January 2013                         ing March 2013 to review outstanding audit recom-
                                                         mendations pertaining to the Follow-up Audit of
 http://www.fec.gov/fecig/documents/
                                                         Procurement and Contract Management. Based on
 Dec2012OutstandingRecommendationReport.pdf              the OIG’s review of 13 contract files and follow-up
                                                         work performed, the OIG was able to close six (6) of
 During the previous reporting period the OIG re-
                                                         the 29 outstanding audit recommendations.
 vised its audit follow-up process to include con-
 ducting quarterly meetings with management and
                                                         In total, the OIG closed 31 outstanding recommen-
 providing semiannual reports to the Commission
                                                         dations for the semiannual reporting period from
 detailing the status of the outstanding recommen-
                                                         October 2012 to March 2013 due to adequate cor-
 dations. During this reporting period, the OIG re-
                                                         rective actions implemented by management. The
 leased the December 2012 Review of Outstanding
                                                         total cumulative outstanding recommendations is
 Audit Recommendations report to the Commission
                                                         140. See Table III for a breakdown of outstanding
 detailing the follow-up work conducted by the OIG
                                                         recommendations.
 and the status of the outstanding recommendations.

 The report covered five (5) audits totaling 127 out-
 standing audit recommendations:

   •   Audit Follow-up Review of the FEC’s Employee
       Transit Beneﬁt Program;
   •   Audit of the Commission’s Property
       Management Controls;
   •   Follow-up Audit of Privacy and Data Protection;
   •   Follow-up Audit of Procurement and Contract
       Management; and
   •   Inspection of the FEC’s Kastle Key Program.
 Based on follow-up work performed during the
 quarter ending December 2012 and reported in
 the December 2012 Review of Outstanding Audit
 Recommendations report, OIG was able to close
 25 recommendations related to three audits (Audit
 Follow-up Review of the FEC’s Employee Transit


                                                                                                             7
                                                                Office of Inspector General Semiannual Report to Congress




                                                                      OIG Inspections



Inspection of the FEC’s Disaster Recovery Plan            was held on October 9, 2012 and fieldwork com-
and Continuity of Operations Plans                        menced during the week of October 22, 2012. To
                                                          meet the objectives of the inspection, Brown per-
Assignment Number:        OIG-12-06                       formed several test steps during fieldwork, to
Status:    Released January 2013                          include:

http://www.fec.gov/fecig/documents/                         •   physical walkthroughs of the FEC’s disaster re-
FECDRPandCOOPInspectionReport.pdf                               covery facilities;

The Office of Inspector General (OIG) procured con-         •   reviewing documentation related to the COOPs
tract services to conduct an inspection of the FEC’s            for each FEC office/division;
disaster recovery plan (DRP) and continuity of oper-        •   review of the FEC’s disaster recovery plan; and
ations plans (COOP). The objectives of the inspec-
tion were to determine if FEC:                              •   interviews with FEC staff who were identified
                                                                as having a significant role in executing the
    1. Established an adequate project plan for the             FEC’s COOPs and/or DRP.
       completion of the FEC’s DRP/COOPs;
                                                          At the conclusion of fieldwork, the contractor con-
    2. Assigned adequate/sufficient resources in or-      ducted a debriefing with management regarding
       der to complete a mission critical project;        the issues identified and formally documented the
                                                          issues in notices of findings and recommendations
    3. Conducts continuous monitoring procedures to
                                                          (NFRs). Management provided responses to the
       ensure the plans are reﬂective of current busi-
                                                          NFRs and Brown drafted the inspection report and
       ness processes;
                                                          released the draft report to management for review
    4. Conducts appropriate testing procedures; and       and comment. The final inspection report was re-
                                                          leased on January 30, 2013 and contained 14 find-
    5. Developed, implemented and tested the FEC’s        ings and 30 recommendations for improvement.
       DRP/COOPs in compliance with applicable
       guidance (best practices) related to the federal   Among the fourteen findings, were the following:
       government.                                        (1) COOP and DRP training is not provided to key
                                                          COOP personnel. Personnel responsible for mis-
On September 26, 2012, Brown & Company (Brown)
                                                          sion critical systems must be trained to execute
was awarded the contract to conduct the inspection
                                                          contingency procedures. If teams are not properly
under the supervision of the OIG, and in accor-
                                                          trained, the FEC risks the chance of the COOP not
dance with the Council of the Inspectors General on
                                                          being properly implemented and can affect the over-
Integrity and Efficiency (CIGIE) Quality Standards
                                                          all strategy of the plan; (2) the System Security Plan
for Inspections and Evaluations, January 2011.
                                                          (SSP), COOPs, and DRP are not reviewed and up-
A planning meeting was held with Brown on October         dated on an annual basis. If plans are not updated
1, 2012 to discuss in detail the inspection objectives,   and tested, at least annually, they will become non-
requirements and expectations of the contractor.          effective and inaccurate; and (3) FEC’s COOP and
The kick-off meeting with Brown and management            DRP contact lists are outdated and do not contain



8
October 1, 2012 - March 31, 2013




 adequate contact information. Important compo-             the OEEO is procedurally compliant, both in pro-
 nents of a COOP are the Call Trees, contact infor-         cess and practice, with the statutes and regulations
 mation, and the roles and responsibilities for all the     governing complaints; b) To evaluate the effective-
 recovery teams. This information helps the agen-           ness of OEEO educational and outreach efforts
 cy to quickly respond to any disaster or disruptive        concerning the complaint process and practice; and
 event. The FEC’s COOP and DRP Call Trees and               c) To provide FEC management with an understand-
 contact lists were in the process of being updated         ing of trends in reported allegations of violations of
 at the time of the inspection, for the first time in two   EEO laws. The second goal is to review OEEO-
 years.                                                     sponsored training and post-training OEEO sur-
                                                            vey results from participants. This goal is intended
                                                            to measure the OEEO’s effectiveness in providing
 Office of Equal Employment Opportunity                     training to FEC employees.
 Inspection                                                 The necessary records and case files have been
 Assignment Number:         OIG-12-07                       reviewed by the OIG, and an OIG survey of FEC
                                                            employees about OEEO practices has been pre-
 Status:   In Progress                                      pared and will be conducted early in the next report-
 The OIG is conducting an inspection of the FEC’s           ing period. The OEEO inspection is expected to be
 Office of Equal Employment Opportunity (OEEO).             completed and the report published during the next
 The OEEO administers and implements anti-dis-              reporting period.
 crimination, prohibited personnel practice and af-
 firmative action statutes and regulations, as well
 as related policies, procedures and guidance (col-
 lectively, “EEO laws”) for the FEC. These statutes
 include Title VII of the Civil Rights Act of 1964, as
 amended, the Notiﬁcation and Federal Employment
 Anti-Discrimination and Retaliation Act of 2002 (No
 FEAR Act), the Age Discrimination in Employment
 Act of 1967 (ADEA), the Americans with Disabilities
 Act of 1990 (ADA), among others. The OEEO’s
 general responsibilities are two-fold – to advise and
 educate employees and managers of their rights
 and responsibilities under the EEO laws, and to pro-
 cess complaints of alleged violations of EEO laws.
 The OEEO is also responsible for recordkeeping
 and reporting, especially of complaint statistics, as
 required by the EEO laws.

 The inspection has two goals. The first goal is to
 analyze the OEEO complaint process and statis-
 tics. This goal has three objectives: a) To ensure that


                                                                                                                9
                                                               Office of Inspector General Semiannual Report to Congress




                                              OIG hotline Information



The OIG hotline exists to enable FEC employees,            been routed to the Office of Complaints and Legal
FEC contractors, and the public to have direct and         Administration within the Office of General Counsel
confidential contact with the OIG. All allegations or      (OGC), are outside the jurisdiction of the OIG or
referrals of fraud, waste, abuse, mismanagement,           the FEC, or are facially unsubstantiated, merit-
and misconduct involving FEC employees, contrac-           less or invalid. For example, Section 437g of the
tors, programs, operations, property, or funds re-         Federal Election Campaign Act of 1971 (FECA), as
ceived through any means are termed “hotline com-          amended, sets forth strict requirements for report-
plaints” per OIG policy. Once a hotline complaint          ing alleged violations of FECA, and FEC regulations
has been received, a preliminary inquiry is conduct-       direct that such complaints be filed directly by the
ed to determine whether the hotline complaint will         complainant and processed through OGC; still, the
be closed with no further action taken, referred to        OIG regularly receives complaints of alleged FECA
management or another agency, or an investigation          violations, many of which are not legally compliant.
will be initiated.                                         Form responses with information about properly fil-
                                                           ing a complaint with OGC are sent to complainants
The OIG considers many factors when evaluating             alleging FECA violations, as the OIG cannot simply
whether to open an investigation based on a hot-           route FECA complaints to OGC. In other cases of
line complaint, and acknowledges that every hotline        misdirected complaints, a response is sent to the
complaint received by the OIG cannot be investi-           individual referring him or her to the proper office
gated, and in many cases do not merit investigation.       or other agency. In some limited instances where
OIG policy requires that hotline complaints be evalu-      a misdirected communication does not concern a
ated on certain criteria, including the merits of an al-   FECA violation but falls under the purview of anoth-
legation, the availability of evidence, and the existing   er FEC component or government agency, such as
priorities, commitments, and resources of the OIG.         a candidate with a question about filing a report with
Under this policy, hotline complaints are classified       the FEC, the inquiry may be redirected and sent to
as either high or low priority complaints. High prior-     the appropriate office or agency directly from the
ity complaints are investigated, and low priority com-     OIG. Reviewing and, where appropriate, responding
plaints are either closed with no action or referred       to these reports and allegations when aggregated
to the appropriate official for possible further review.   can entail a significant amount of staff time and ef-
Hotline evaluation decisions are made by the Chief         fort, despite the fact that they are not valid hotline
Investigator, with concurrence from the Deputy IG.         complaints.

During this semiannual reporting period, three (3)         In order to capture and document these hotline
new hotline complaints were opened and three (3)           contacts, the OIG created a category for “hotline
hotline complaints were closed. The OIG has three          inquiries” that do not meet the criteria for hotline
(3) open hotline complaints as of the close of this        complaints. Hotline contacts that are misdirected
reporting period, including two (2) that were opened       complaints, facially unsubstantiated, meritless or
prior to the beginning of this reporting period.           invalid, and thus do not meet the criteria for clas-
                                                           sification as a hotline complaint, are categorized
The OIG frequently receives reports and allegations        as “hotline inquires.” For this reporting period, the
which are misdirected complaints that should have          OIG received five (5) hotline inquiries. One (1) of



10
October 1, 2012 - March 31, 2013




 the hotline inquiries was redirected to another FEC
 office, and two (2) were referred to another agency.
 One (1) was outside the OIG’s jurisdiction and under
 investigation by another agency, and no further ac-
 tion was taken on one (1) of the complaints.




                                                        11
                                                          Office of Inspector General Semiannual Report to Congress




                                                          OIG investigations



OIG investigations seek out facts related to allega-
tions of wrongdoing. OIG investigations may ad-
dress administrative, civil, and criminal violations of
laws and regulations. The subject of an OIG in-
vestigation can be any agency employee, an FEC
contractor, consultant, or a person or entity involved
in alleged wrongdoing affecting FEC programs and
operations.

As discussed in OIG Hotline Information, all hotline
complaints are evaluated to determine if they war-
rant an investigation. If an investigation is opened,
the hotline complaint is closed and merged into the
investigative file. OIG investigations involve a de-
tailed examination or inquiry into issues brought to
our attention by various sources, and may include
interviews of relevant witnesses and subjects, docu-
ment reviews, and computer forensic examinations.
At the conclusion of an OIG investigation, the OIG
prepares a report that sets forth the allegations and
an objective description of the facts developed dur-
ing the investigation.

One (1) investigation was opened during the last
semiannual reporting period and is actively being in-
vestigated and remains open.




12
October 1, 2012 - March 31, 2013




                                                   Additional OIG Activity



 Besides conducting audits, inspections, and investi-      addition, the OIG destroyed voided OIG cre-
 gations, the OIG performs, and is involved in an ar-      dentials, which consisted of outdated creden-
 ray of additional projects and activities. As required    tials that were replaced and those of individuals
 by the Inspector General Act of 1978, as amend-           no longer employed by the OIG. The OIG also
 ed, all legislation compiled by the Commission’s          submitted a set of records to the FEC records
 Congressional Affairs Office is reviewed by the           manager to obtain an accession number so
 Inspector General.                                        that temporary files on hand can be shipped to
                                                           NARA records center for storage.
 The Inspector General also reviews and provides
 comments, when appropriate, on legislation provid-
 ed by the Council of Inspectors General on Integrity
 and Efficiency (CIGIE) Legislative Committee. In
 addition, the Inspector General routinely reads all
 Commission agenda items. Listed below are exam-
 ples of the OIG’s additional activities:

   •   During this reporting period, the OIG responded
       to two (2) Congressional inquiries. The first re-
       quested information about the IG community’s
       highest priority recommendations for reduc-
       ing waste and increasing efficiency in executive
       branch departments and agencies. The sec-
       ond inquiry was a two-part request – the first
       request concerns the applicability of climate
       change laws and regulations to the FEC, and
       an assessment of whether the FEC is meeting
       applicable standards. The second request was
       an assessment of what authorities the FEC has
       and can use to reduce emissions and strength-
       en resiliency. The FEC’s Office of General
       Counsel (OGC) was consulted in developing
       the response, as some of the requested infor-
       mation falls under OGC’s purview.

   •   The OIG reviewed a listing of our annual re-
       cords, per the OIG’s records management
       policy, to determine what records are scheduled
       to be archived and/or destroyed; we received
       notification from the FEC records officer that
       a set of temporary records previously submit-
       ted to NARA by the OIG will be destroyed. In


                                                                                                         13
                                                            Office of Inspector General Semiannual Report to Congress




       Council of the Inspectors General on
     Integrity and Efficiency (CIGIE) Activity


The Inspector General continues to be very involved     leadership programs and presented the results of
in the Council of the Inspectors General on Integrity   the review to the CIGIE Professional Development
and Efficiency (CIGIE) which is composed of the         Committee.
Chair, Vice Chair, the past Vice Chair of the CIGIE,
and all Committee Chairs. The Executive Council
provides guidance on CIGIE initiated projects, the
operating plans for each fiscal year, and the general
business of CIGIE. The Council meets monthly to
discuss issues that will affect CIGIE.

During this semiannual reporting period, the IG
was appointed Vice Chair of the Council of the
Inspectors General on Integrity and Efficiency. In
this capacity, the IG supports the Chair, reviews
various documents, attends weekly meetings with
the Chair and CIGIE executive staff, and provides in-
put into various issues that come before CIGIE. The
IG also prepares for and participates in numerous
conference calls with various government officials
to discuss a broad range of topics affecting CIGIE
and the federal government. The IG is also Chair of
the IG Recommendations Panel and continues to
receive resumes and questionnaires from individu-
als seeking to become IGs. The resumes and ques-
tionnaires are shared with other members of the IG
Recommendations Panel.

The IG, along with the Chair of CIGIE, hosted a
brown bag luncheon for OIGs on sequestration. The
IG also participated in American University’s New
Leaders Course – Lunch with the IG program and
spoke to participants about leadership style, chal-
lenges facing IGs as leaders, and what it takes to
rise to the executive level in the IG community.

The IG Counsel served as coordinator of the DFE
Investigative Peer Review, in this capacity the IG
Counsel finalized the peer review schedule and con-
ducted a presentation on the peer review process to
the CIGIE Investigations Committee. The IG Counsel
also participated in a curriculum review of the CIGIE


14
October 1, 2012 - March 31, 2013




                                                              OIG Contacts



 The table below indicates the total amount of con-
 tacts received by the Office of Inspector General
 for the past six months – October 1, 2012 through
 March 31, 2013.

 These contacts were made through various sources
 such as telephone calls, e-mails, faxes, U.S. mail,
 and personal visits to the OIG.

     Total              OIG        No Action     Forwarded
    Contacts           Action      Necessary     for Action

      3,218                67       3,107              44




                                                                         15
                                                                Office of Inspector General Semiannual Report to Congress




                                              List of Training, Meetings
                                                        and Conferences

     The chart listed below depicts training, meetings, programs, seminars, and/or conferences attended by the
     Inspector General and/or the OIG staff for the period October 1, 2012 – March 31, 2013:

     MEETINGS:
                       Host / Sponsor                                             Topic / Subject


                                                                  Weekly Chair/Vice Chair Meetings
                                                                  Monthly Meetings
                                                                  Monthly Executive Council Meetings
                         Council of Inspectors General on         Professional Development Committee/Leadership
                                   Integrity and Efficiency       Development Subcommittee Meetings
                                                                  Inspector General Criminal Investigator Academy
                                                                  Seasoned Training Officers Meeting
                                                                  Annual Awards Ceremony


            Council of Counsels to the Inspectors General         Monthly Meetings

             Assistant Inspector General for Investigations       Quarterly Meetings

                       Financial Statement Audit Network          Network Meetings

                           Federal Audit Executive Council        Bi-monthly Meetings

                                                                  Bi-weekly Directors' Meetings
                                                                  Finance Committee Meetings
                                                                  Managers' Meeting
                             Federal Election Commission
                                                                  Administrative Liaison Group Meetings
                                                                  Occupant Emergency Team Meeting
                                                                  Employee Recognition Ceremony

                         FEC / Office of Inspector General        Bi-weekly Staff Meetings




16
 October 1, 2012 - March 31, 2013




TRAINING/CONFERENCES:
                 Host / Sponsor                                        Topic / Subject
                                                      2012 Suspension and Debarment Workshop
Council of Inspectors General on Integrity and        Peer Review Training
                                    Efficiency
                                                      IG Authorities Training Program

                                                      EPA Forensic Audit Product Line and Lessons From
                 Federal Audit Executive Council       Treasury Inspector General for Tax Administration

      Association of Certified Fraud Examiners        Anti-fraud Efforts in Healthcare seminar
                                                      Tools for Effective Collaboration between Internal Audit,
                                                       Compliance, and Risk Management seminar
                     Institute of Internal Auditors
                                                      Creating a World Class Audit Organization seminar

                     Office of Government Ethics      Conflicts of Interest Training

                                         AuditNet     Adding Value by Auditing Value training
                                                       Data Analysis using Excel training

                          FCW Executive Briefings     Detecting and Preventing Wasteful and Improper
                                                       Payments

                                                      Detecting Deception
                                            I-Sight   Best Practice in Investigative Report Writing
                                                      What Analysts need to know about Social Media

                                                      Procurement 101 Training
                    Federal Election Commission
                                                      SkillPort Tutorial Overview

  Chief Financial Office/International Training
                                   Consortium         Contracting Officers Representative (COR) Training


                     National Seminars / Skillpath    Professional Excellence for Women




                                                                                                                  17
                                                               Office of Inspector General Semiannual Report to Congress




                                              Reporting Requirements




     Reporting requirements required by the Inspector General Act of 1978, as amended by the Inspector
     General Act Amendments of 1988 are listed below:

     IG ACT                DESCRIPTION                                                                       PAGE

     Section 4(a)(2)       Review of Legislation                                                                13

     Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                                      None

                           Recommendations with Respect to Significant Problems, Abuses,
     Section 5(a)(2)                                                                                           None
                           and Deficiencies
                           Recommendations Included in Previous Reports on Which Corrective
     Section 5(a)(3)                                                                                            21
                           Action Has Not Been Completed (Table III)
     Section 5(a)(4)       Matters Referred to Prosecuting Authorities                                         None

     Section 5(a)(5)       Summary of Instances Where Information was Refused                                  None

     Section 5(a)(7)       Summary of Significant Reports                                                        5

     Section 5(a)(8)       Questioned and Unsupported Costs (Table I)                                           19

     Section 5(a)(9)       Recommendations that Funds be put to Better Use (Table II)                           20

                           Summary of Audit Reports issued before the start of the Reporting Period
     Section 5(a)(10)                                                                                          N/A
                           for which no Management Decision has been made
     Section 5(a)(11)      Significant revised Management Decisions                                            N/A

                           Management Decisions with which the Inspector General is
     Section 5(a)(12)                                                                                          None
                           in Disagreement




18
October 1, 2012 - March 31, 2013




                                                                              TABLE I


 INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
 (DOLLAR VALUE IN THOUSANDS)



                                                       Number   Questioned   Unsupported
                                                                  Costs         Costs

  A. For which no management decision has been made      0          0             0
     by commencement of the reporting period


  B. Which were issued during the reporting period       0          0             0


      Sub-Totals (A&B)                                   0          0             0


  C. For which a management decision was made during     0          0             0
     the reporting period


      (i) Dollar value of disallowed costs               0          0             0


      (ii) Dollar value of costs not disallowed          0          0             0


  D. For which no management decision has been made      0          0             0
     by the end of the reporting period

  E. Reports for which no management decision was        0          0             0
     made within six months of issuance




                                                                                           19
                                                               Office of Inspector General Semiannual Report to Congress




                                                                                                TABLE II


INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE


                                                                                   Number         Dollar value


A. For which no management decision has been made by commencement of
   the reporting period                                                                 0                   0


B. Which were issued during the reporting period                                        0                   0


C. For which a management decision was made during the reporting period                 0                   0

     (i) dollar value of recommendations were agreed to by management                   0                   0

         based on proposed management action                                            0                   0

         based on proposed legislative action                                           0                   0

     (ii) dollar value of recommendations that were not agreed to by                    0                   0
          management

D. For which no management decision has been made by the end of the
   reporting period                                                                     0                   0

E. Reports for which no management decision was made within six months of
   issuance                                                                             0                   0




20
October 1, 2012 - March 31, 2013




                                                                                                            TABLE III


 SUMMARY OF AUDIT AND INSPECTION REPORTS WITH CORRECTIVE ACTIONS
 OUTSTANDING FOR MORE THAN SIX MONTHS
                                                                                        Recommendations
           Report Title                              Report                Issue Date        Number          Closed           Open
                                                     Number
     Audit Follow-up Review of the
     FEC’s Employee Transit Benefit                  OIG-08-03                07/09             51              36             15
     Program

     Audit of the Commission’s                       OIG-09-02                03/10             36              22             14
     Property Management Controls

     Federal Election1 Commission                    OIG-12-03                11/12             32               0             32
     2012 Financial Statement Audit
     2010 Follow-up Audit2 of
     Procurement and Contract                        OIG-10-02                06/11             29               6             23
     Management

     2010 Follow-up Audit3 of                        OIG-10-03                03/11             45               7             38
     Privacy and Data Protection

     Inspection of the Federal
     Election Commission’s Kastle                    OIG-11-02                12/11             15               8               7
     Key Program

     Quality Assessment Audit of the
     Federal Election Commission’s                   OIG-12-01                09/12             11               0             11
     Audit Division



                                             Cumulative Total of Outstanding Recommendations                                  140



 1 Follow-up on the 20 open recommendations from the 2011 audit was performed during interim testing for the FEC’s 2012 Financial
   Statement Audit, and as of September 30, 2012 (5) recommendations were reported as closed in the OIG’s previous semiannual report.
 2 The 29 open recommendations include 12 of the 15 recommendations from the 2008 Procurement and Contract Management
   Performance Audit, OIG-08-02. Three recommendations were closed from the 2008 audit
 3 The 45 open recommendations include 16 of the 19 recommendations from the 2006 Inspection Report on Personally Identifiable
   Information, OIG-06-04, and 2007 Performance Audit of Privacy and Data Protection, OIG-07-02. In total, three recommendations were
   closed from the 2006 inspection and 2007 audit.



                                                                                                                                     21
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




22
October 1, 2012 - March 31, 2013




              APPENDIX A


                    Federal APPENDIX
                            Election Commission
                                     A:

                       Office of Inspector General




                                   Fiscal Year 2013
                                              Work Plan



                                        Lynne A. McFarland
                                         Inspector General

              ___________________________________________
              Semiannual Report to Congress     Page 27   October 1, 2012 – March 31, 2013




                                                                                             23
                                                          Office of Inspector General Semiannual Report to Congress




                          TABLE OF CONTENTS

     A Message from the Inspector General-------------------------------------------- 1

     The Federal Election Commission--------------------------------------------------- 3

     Office of Inspector General------------------------------------------------------------ 3

     OIG Strategic Planning----------------------------------------------------------------- 4

     Annual Planning and Methodology Strategies---------------------------------- 5

     OIG 2013 Work Plan-------------------------------------------------------------------- 6

            Audits/Inspections/Reviews-------------------------------------------------- 6

            Investigative Program--------------------------------------------------------- 9

            Special Projects------------------------------------------------------------------ 10

     Attachment

            FEC / OIG Strategic Plan – Fiscal Years 2010 - 2015




24
October 1, 2012 - March 31, 2013




                        FEDERAL ELECTION COMMISSION
                        WASHINGTON, D.C. 20463
                        Office of Inspector General


                                       A Message from the Inspector General


            I am pleased to present to the Commission the Office of Inspector General’s (OIG)
    fiscal year (FY) 2013 Annual Work Plan. This work plan includes a description of audit,
    inspections, investigative and special projects planned for FY 2013. The plan also sets
    forth the OIG’s formal strategy for identifying priority issues and managing its workload
    and resources for FY 2013. Successful execution of this plan will enable the OIG to
    provide the highest quality work products to our stakeholders and to assist the FEC in
    meeting its strategic mission, goals and objectives.

           The OIG substantially completed the work planned for FY 2012 in the audit and
    investigative programs, as well as special projects; some of the assignments are in
    process spanning fiscal years 2012 and 2013. Among the audits completed in FY 2012
    were the Audit of the FEC’s Fiscal Year 2011 Financial Statements, and the Quality
    Assessment Audit of the FEC’s Audit Division. The OIG also devoted resources this past
    FY to audit follow-up with the goal of closing outstanding audit recommendations. I am
    pleased to report the FEC has been able to implement some of the outstanding OIG
    recommendations, but a considerable amount of work remains to ensure weaknesses
    cited by the OIG are addressed.

            In addition to the accomplishments in the audit program, the investigative
    program accomplished much of the work planned for 2012, to include responding to
    hotline complaints, OIG briefings to new employees, oversight of the OIG’s hotline
    service, among other projects. My office also completed our first voluntary investigative
    peer review of another federal OIG. In addition to the investigative program, the OIG
    staff was actively involved in several professional working groups during the FY, to
    include the Council of the Inspectors General on Integrity and Efficiency Professional
    Development Committee, the Inspector General (IG) Candidate Recommendations Panel
    Committee, the IG Council of Counsels, among others. At the start of FY 2013, the OIG
    is fully staffed with six professional staff members, and therefore, I anticipate the OIG
    will successfully complete the FY 2013 work plan that follows.

           The U.S. Federal Election Commission’s (FEC) mission statement is “to prevent
    corruption in the Federal campaign process by administering, enforcing and formulating
    policy with respect to Federal campaign finance statutes.”1 The OIG is committed to
    ensuring the integrity of FEC programs and operations. The development and continual
    updating of the OIG’s work plan is a critical aspect of accomplishing the OIG’s objectives
    to promote economy and efficiency in FEC programs and to detect and prevent fraud,
    waste and abuse. Effective work planning ensures that audit and investigative resources


    1
      Federal Election Commission, Fiscal Year 2013 Congressional Budget Justification (Washington, DC, February 13,
    2012), 3.
                                                                                                                       1




                                                                                                                           25
                                                          Office of Inspector General Semiannual Report to Congress




     are used effectively and efficiently. I look forward to a successful year of providing the
     highest quality of audit and investigative support and service to our stakeholders.




     Lynne A. McFarland
     Inspector General
     Federal Election Commission

     October 3, 2012




                                                                                                        2



26
October 1, 2012 - March 31, 2013




    The Federal Election Commission
           In 1975, Congress created the Federal Election Commission (FEC) to administer
    and enforce the Federal Election Campaign Act (FECA). The duties of the FEC, an
    independent regulatory agency, are to disclose campaign finance information; enforce the
    provisions of the law; and oversee the public funding of Presidential elections.

            The Commission is made up of six members, who are appointed by the President
    and confirmed by the Senate. Each member serves a six-year term, and two seats are
    subject to appointment every two years. By law, no more than three Commissioners can
    be members of the same political party, and at least four votes are required for any
    official Commission action. The Chairmanship of the Commission rotates among the
    members each year, with no member serving as Chairman more than once during his or
    her term. Currently the FEC has a full complement of Commissioners – Chair Caroline
    C. Hunter; Vice-Chair Ellen L. Weintraub; Cynthia L. Bauerly; Matthew S. Petersen;
    Steven T. Walther; and Donald F. McGahn, II.




    Office of Inspector General
           The Inspector General Act of 1978 (P.L. 100-504), as amended, states that the
    Inspector General is responsible for: 1) conducting and supervising audits and
    investigations relating to the Federal Election Commission’s programs and operations; 2)
    detecting and preventing fraud, waste, and abuse of agency programs and operations
    while providing leadership and coordination; 3) recommending policies designed to
    promote economy, efficiency, and effectiveness of the establishment; and 4) keeping the
    Commission and Congress fully and currently informed about problems and deficiencies
    in FEC agency programs and operations, and the need for corrective action. The OIG
    budget request for FY 2013 was $ 1,144,237, an amount necessary to cover salaries and
    related expenses for six staff members, to include audit contracts and training. Exhibit 1
    on the following page contains the OIG’s organizational chart.




                                                                                             3



                                                                                                 27
                                                               Office of Inspector General Semiannual Report to Congress




     Exhibit 1: FEC - OIG Organizational Chart
                                      Lynne A. McFarland

                                        Inspector General


                    Dorothy Maddox-Holland

                     Special Assistant to the
                       Inspector General



                                                Jon Hatfield

                                          Deputy Inspector
                                             General


       Shellie Purnell-Brown                     Mia Forgy            J. Cameron Thurber

            Senior Auditor                  Senior Auditor          Counsel to the Inspector
                                                                   General/Chief Investigator



     OIG Strategic Planning

     Strategic Plan
            To enhance the effectiveness of the OIG and to ensure effective audit and
     investigative coverage of the Commission’s programs and operations, the OIG has a
     strategic plan that covers the period 2010 through 2015. Three major categories of OIG-
     wide goals and objectives are included in the strategic plan, which are as follows:

           OIG Products: To provide products and services that promote positive change in
            FEC policies, programs, and operations.

           OIG Processes: To develop and implement processes, policies, and procedures to
            ensure the most effective and appropriate use of OIG resources in support of our
            people and products.

           OIG Staff: To maintain a skilled and motivated work force in an environment
            that fosters accountability, communications, teamwork, and personal and
            professional growth.




                                                                                                             4




28
October 1, 2012 - March 31, 2013




           In addition, strategies and performance measures for each objective are included
    in the strategic plan. For example, an OIG performance measure for audits includes
    using feedback from stakeholder surveys to continually improve the OIG’s audit process.
    At the conclusion of each audit/inspection/review, the OIG distributes a stakeholder
    survey to the program officials to solicit their feedback on the usefulness of the completed
    OIG assignment and their overall satisfaction with the process.

           The OIG strategic plan will continue to evolve and will be reviewed and updated
    as necessary to ensure maximum effectiveness in meeting the changing needs of the
    FEC, consistent with the OIG’s statutory responsibilities. A detailed illustrative version
    of the OIG’s strategic plan can be found as an attachment of this annual work plan.



    Annual Planning and Methodology Strategies

            The planning methodology adopted by the OIG is based on a formal risk
    assessment process. The purpose of the risk assessment process is to better align OIG resources to
    areas that will provide the most value to the FEC. A risk assessment is a process to identify, assess,
    respond to, and report on opportunities and threats that affect the achievement of objectives. The OIG
    also solicits feedback and ideas from stakeholders throughout the year. The annual work
    plan will, of course, require periodic updates to reflect changes, such as new priorities, as
    well as any changes in OIG resources.

           In the summer of 2012, the OIG conducted our fifth annual planning process that
    involved a series of OIG planning meetings to discuss the upcoming fiscal year and OIG
    work assignments. In addition to planning based on risk, the OIG planning process is
    also designed to yield work assignments that will identify opportunities for economy,
    efficiency and effectiveness in FEC programs and operations; and detect and prevent
    fraud, waste, abuse and mismanagement. The priority for conducting work assignments
    is based on (1) mandatory legislative requirements; (2) emphasis by the President,
    Congress, and the Commission; (3) a program’s susceptibility to fraud, manipulation, or
    other irregularities; (4) dollar magnitude or resources involved in the proposed area; (5)
    management needs identified through consultation with primary organization heads; (6)
    newness, changed conditions, or sensitivity of an organization; (7) the extent of
    outstanding issues resulting from prior audit coverage or review by the OIG or other
    oversight body; and (8) the adequacy of internal control systems in place for the program
    or other factors.




                                                                                                        5




                                                                                                             29
                                                        Office of Inspector General Semiannual Report to Congress




           Based on the results of the OIG’s planning process, the OIG’s annual work plan is
     divided into three primary categories:

        (1) Audits/Inspections/Reviews;
        (2) Investigative Program; and
        (3) Special Projects.


     OIG 2013 Work Plan
     AUDITS/INSPECTIONS/REVIEWS

           The term “audit” is used to describe work performed by auditors in examining
     financial statements, as well as work performed in reviewing compliance with applicable
     laws and regulations, the economy and efficiency of operations, and the effectiveness in
     achieving program results. These audits are prepared in accordance with generally
     accepted government auditing standards and vary in scope and complexity. Inspections
     and reviews are conducted in accordance with quality standards issued by the federal
     Inspector General community.

     For fiscal year 2013, the following assignments are planned:

        1. Audit of the Federal Election Commission’s 2012 and 2013 Financial
           Statements.

           In accordance with the Accountability of Tax Dollars Act of 2002, the FEC is
           required to prepare annual financial statements in accordance with Office of
           Management and Budget (OMB) Circular No. A-136, Financial Reporting
           Requirements. The Chief Financial Officers Act of 1990, as amended, requires the
           FEC Inspector General, or an independent external auditor selected by the IG, to
           audit the agency financial statements.

           We will oversee the audit conducted by the OIG’s independent public accounting
           firm Leon Snead & Company. The OIG is responsible for 1) reviewing the
           auditor’s approach and planning of the audit; 2) evaluating the qualifications and
           independence of the auditors; 3) monitoring the work of the auditors; 4) examining
           audit documents and reports to ensure compliance with government auditing
           standards, and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial
           Statements, as revised; and 5) other procedures the OIG deems necessary to
           oversee the contract and audit.

           Planned period of audit: May 2012 – November 2012;
                                    May 2013 – November 2013.




                                                                                                      6




30
October 1, 2012 - March 31, 2013




        2. Audit of the Federal Election Commission’s Human Resources Office.

            The OIG will conduct a performance audit of the FEC’s Human Resources (HR)
            Office during the first part of fiscal year (FY) 2013. The HR Office is a critical
            component of the agency and is responsible for several important functions, to
            include recruitment and retention of qualified staff; employee-employer relations;
            administration of employee benefits; maintenance and processing of personnel
            records; training; among other responsibilities. The OIG audit will focus on two
            main areas, customer service and the efficient and effective use of automated
            processes by the agency for human resource functions. As part of the customer
            service assessment, the OIG will conduct an agency-wide survey of FEC staff to seek
            feedback on their satisfaction level of service provided by the FEC HR Office.

            Planned period of audit: July – December 2012.

        3. Audit of the Federal Election Commission’s Budget and Financial
           Management Process

            The OIG will conduct a performance audit of the FEC’s budget and financial
            management process. The audit will have three primary objectives: (1) to
            determine whether the Office of the Chief Financial Officer provides FEC
            management with timely, accurate and real-time financial information to enable
            managers to effectively monitor and manage FEC programs; (2) to assess the
            benefits and costs of the FEC’s financial line of business with the General Services
            Administration; and (3) assess year-end spending.

            Planned period of audit: January – April 2013.

        4. On-Going Audit Follow-up.

            An important responsibility of the OIG is to follow-up on previously issued audit
            reports with outstanding audit recommendations. At the beginning of FY 2013,
            there were 143 outstanding audit recommendations representing five audits and
            one inspection. On-going audit follow-up during FY 2013 will consist of the
            following responsibilities: (1) review implemented audit recommendations to
            ensure the audit finding has been resolved; (2) review and comment on
            management’s corrective action plans that detail plans for resolving outstanding
            audit recommendations; and (3) conduct regular meetings throughout the FY with
            management to discuss progress to implement audit recommendations.

            Planned period of audit followup: On-going throughout FY 2013.




                                                                                               7




                                                                                                   31
                                                    Office of Inspector General Semiannual Report to Congress




     5. Audit Peer Review.

       The OIG will complete an audit peer review of another federal OIG during the
       fiscal year as part of the Council of Inspectors General on Integrity and
       Efficiency’s audit peer review program. Government auditing standards require
       audit organizations to have an external review of their quality control system at
       least every three years.

       Planned period of audit peer review: Fiscal year 2013.

     6. Limited Scope Inspections.

       The OIG is planning to conduct two to four limited scope, or short-term,
       inspections of FEC programs during FY 2013. The goal of the short-term
       inspections will be to focus OIG resources on high-risk areas and provide rapid,
       up-to-date information to FEC management and the Commission on the efficiency
       and effectiveness of FEC programs.
          o An inspection related to the Office of Equal Employment Opportunity was
             started in late FY 2012 and is expected to be completed by December 2012.
          o A second inspection is expected to begin in October 2012 on the
             implementation of the agency’s disaster recovery plan and continuity of
             operations plans. The inspection is expected to be completed in December
             2012.
          o An inspection on the FEC’s compliance with the Federal Managers’
             Financial Integrity Act (FMFIA) is planned to begin in the early part of
             calendar year 2013 and is expected to be completed by April 2013.
          o Additional inspections on the FEC’s civil penalties program, FEC’s
             information technology planning process, leasehold improvements and the
             agency printing program may be performed, time permitting.

     7. Additional Work Assignments.

       Additional work assignments may be undertaken during FY 2013 based on
       available OIG resources, benefit to the agency, and other relevant factors.
       Priorities may be adjusted to reflect emerging issues during the FY.




                                                                                                  8




32
October 1, 2012 - March 31, 2013




    INVESTIGATIVE PROGRAM

           The OIG’s investigative program is intended to add value to the agency’s programs
    and operations by identifying and investigating allegations of fraud, waste, abuse and
    misconduct leading to criminal, civil, and administrative penalties and recoveries.
    Investigations typically originate as hotline complaints and may result in formal
    investigations if the OIG believes an investigation is warranted. The OIG’s investigative
    program also provides for initiatives designed to monitor specific high-risk areas within
    FEC programs and operations in order to proactively identify vulnerabilities in order to
    prevent fraud, waste and abuse.

    For fiscal year 2013, the following investigative assignments are planned:

        1. Manage Hotline Complaints and Investigation Caseload.

            The OIG will respond to hotline complaints during the FY and report in a timely
            manner to the appropriate officials on the resolution of hotline complaints and
            investigations.

        2. Proactive Investigative Initiatives.

            The OIG will initiate proactive reviews involving high-dollar and high-risk
            programs and operations of the agency. In addition, the OIG has identified several
            agency data systems, such as financial related systems, and will continue to
            pursue direct read-access for OIG personnel as part of the OIG’s proactive
            initiatives to prevent fraud, waste, abuse and misconduct.

        3. Investigative Peer Review.

            The FEC OIG participates in the Council of Inspectors General on Integrity and
            Efficiency voluntary peer review program for smaller OIGs, and the FEC OIG is
            expected to be peer reviewed during FY 2013. The objective of the peer review is
            to determine whether internal control systems are in place and operating
            effectively to provide reasonable assurance that professional investigative
            standards are being followed. Specifically, the external peer review team will
            analyze FEC OIG existing policies and procedures, conduct interviews with
            selected OIG management officials and the investigator, and sample closed
            investigative files and other administrative records, as warranted.

            Planned period of investigative peer review: Fiscal year 2013.




                                                                                               9




                                                                                                   33
                                                          Office of Inspector General Semiannual Report to Congress




        4. Outreach.

           In FY 2011, the OIG conducted a series of OIG briefings with FEC division
           management and staff. The briefings were intended to educate FEC staff about
           the mission and authority of the OIG, and how to report fraud, waste, abuse or
           mismanagement to the OIG. In FY 2012, the OIG worked with the Office of the
           Chief Financial Officer to identify the contractor personnel for the agency. The
           OIG plans to provide fraud briefings to the contractor personnel in FY 2013.
           Discussion and education on fraud will help contractors to identify and report
           suspected fraud and help reduce the number of fraud cases. The briefings will also
           discuss the OIG’s hotline service and how contract personnel can report fraud,
           waste and abuse to the OIG.

           In addition, the OIG will continue the new employee orientation program to meet
           with all new employees to discuss the purpose and mission of the OIG. Lastly, the
           OIG will review and revise, as necessary, the OIG’s FECNet (intranet) site, public
           Web site, OIG brochure, fraud poster, and other outreach initiatives.

     SPECIAL PROJECTS

             In addition to the OIG’s audit and investigative responsibilities, the OIG will be
     responsible for numerous additional projects and activities during FY 2013. For
     example, as required by the Inspector General Act of 1978, as amended, all legislation
     compiled by the Commission’s Congressional Affairs Office is reviewed by the Inspector
     General. The Inspector General and staff also participate in several federal Inspectors
     General community working groups on topics related to law, audits, and investigations.
     All of these activities contribute to the success and mission of the OIG. Additional
     special projects will arise throughout the FY and the OIG will prioritize our workload to
     respond to the additional requirements.

     For fiscal year 2013, the following are examples of the special projects and activities
     planned by the OIG:

        1. Participate and Attend Professional Working Group and Other Meetings.


           The Inspector General or OIG staff will regularly attend the following Council of
           the Inspectors General on Integrity and Efficiency (CIGIE) professional working
           group meetings: monthly CIGIE meetings; Executive Council of CIGIE; CIGIE
           Professional Development Committee; IG Candidate Recommendations Panel
           Committee; IG Council of Counsels; Assistant Inspector General for
           Investigations; Federal Audit Executive Council; and Financial Statement Audit
           Network Group.



                                                                                                       10



34
October 1, 2012 - March 31, 2013




            In addition to CIGIE professional working group meetings, the Inspector General
            or staff will regularly attend FEC director level meetings, and management and
            FEC town-hall meetings during the FY.

        2. Semiannual and Quarterly Reporting.

            In accordance with the Inspector General Act of 1978, as amended, the OIG will
            prepare and transmit to the Congress semiannual reports on the activities of the
            OIG. Semiannual reports summarize OIG activities during the immediately
            preceding six-month periods ending March 31st and September 30th of each year.
            OIG semiannual reports are also provided to the Commission. The OIG will also
            report on a quarterly basis to the Commission on the activities of the office.

        3. Professional Development and Training.

            The goal of the OIG’s training program is to provide cost effective training to
            increase professional knowledge and proficiency, and ensure staff meet continuing
            professional educational requirements. As a result, the OIG staff will attend
            professional training during the fiscal year to maintain and improve their
            knowledge, skills and abilities.

        4. Update Audit and Investigative Manuals.

            The OIG will update the office’s audit and investigative manuals in FY 2013. The
            updated audit manual will incorporate recent changes to the Government Auditing
            Standards, and the investigative manual update will reflect changes and additions
            to the OIG’s investigative program.




                                                                                               11



                                                                                                    35
                                                                                                            Office of Inspector General Semiannual Report to Congress




                                                          FEC / OIG Strategic Plan - Fiscal Years 2010 - 2015
     OIG Products: To provide products                          OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
     and services that promote positive                         processes, policies, and procedures to ensure                    work force in an environment that fosters
     change in FEC policies, programs, and                      the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
     operations.                                                resources in support of our people and                           personal and professional growth.
                                                                products.

     Objective A: Deliver timely, high-quality                                                                                   Objective A: Attract and retain well-qualified,
     products and services that promote                                                                                          diverse and motivated employees.
     positive change.                                             Objective A: Maintain a dynamic strategic
                                                                  planning process.                                              Strategy:
                                                                                                                                 - develop and implement a comprehensive recruiting program
     Strategy:                                                                                                                   that attracts a broad population with the knowledge, skills,
     - establish common OIG standards for communicating           Strategy:
                                                                                                                                 abilities, and expertise necessary to make meaningful
     results;                                                     - periodically review and update the strategic plan to
                                                                                                                                 contributions to the OIG;
     - conduct quality assurance programs;                        address changing OIG and FEC priorities; and,
                                                                                                                                 - assess employee satisfaction and develop strategies to
     - solicit appropriate internal and external review and       - identify factors that influence organizational change
                                                                                                                                 address employee concerns;
     comment;                                                     and develop short and long term plans to address them.
                                                                                                                                 - identify reasons for staff departures and develop plans to
     - comply with applicable statutory guidelines and                                                                           foster greater staff retention; and,
     standards;                                                                                                                  - adhere to EEO principles and strive to maintain a diverse work
     - set realistic and appropriate milestones.                                                                                 force.

     Objective B: Address priority issues
     and concerns of the Commission,
                                                                  Objective B: Plan and conduct cost-
     Management, and Congress.
                                                                  effective work that address critical issues                    Objective B: Provide training and
     Strategy: Perform work that supports;                        and results in positive change.                                developmental opportunities to employees.
     - Federal Election Commission and Congressional
     priorities;                                                  Strategy:                                                      Strategy:
     - Strategic Management Initiative efforts;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
                                                                  activities;                                                    office needs as well;
     Focus OIG attention in the following areas of                - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
     emphasis:                                                    goals and priorities;                                          training are adhered to; and,
     - managing change;                                           - ensure that priorities of IG are effectively                 - maintain a reporting system to ensure that educational
     - resource allocation in relation to policy objectives;      communicated; and,                                             requirements are met.
     - delivery of client service;                                - identify specific targets for OIG review that are the most
     - causes of fraud and inefficiency; and,                     cost-effective
     - automation and communication.



                                                                  Objective C: Identify customer needs and
                                                                  provide products and services to meet
     Objective C: Follow-up and evaluate                          them.                                                          Objective C: Assess, recognize, and reward,
     results of OIG products and services to                                                                                     when possible, performance that contributes to
     assess their effectiveness in promoting                      Strategy:                                                      achieving the OIG mission.
     positive change.                                             - establish new customer feed back mechanisms;
                                                                  - consider and evaluate customers feedback when
                                                                                                                                 Strategy:
                                                                  planning and developing products and services;
     Strategy:                                                    - respond to Congressional inquires and request for
                                                                                                                                 - develop and articulate expectations for each employee's
     - Identify, as appropriate, lessons learned to improve                                                                      performance, including contributions in meeting the mission &
                                                                  briefing and testimony;
     timeliness and quality; and,                                                                                                goals of the OIG; and,
                                                                  - promote open exchange of ideas and information
     - conduct follow-up reviews to determine if intended                                                                        - ensure that rewards, when possible, are given in recognition of
                                                                  through outreach and through use of e-mail; and,
     results have been achieved.                                                                                                 exceptional employee performance.
                                                                  - receive, evaluate, and respond, as appropriate, to
                                                                  information received through the OIG hotline and other
                                                                  sources.


     Objective D: Satisfy customers,
     consistent with the independent nature                       Objective D: Implement efficient, effective,                   Objective D: Create and maintain a working
     of the OIG.                                                  and consistent resolution and follow-up                        environment that promotes teamwork and
                                                                  procedures.                                                    effective communication.
     Strategy:
     - establish professional communication and                   Strategy:                                                      Strategy:
     interaction with customers to promote the open               - ensure that IG follow-up procedures are followed and
                                                                                                                                 - ensure that communication between employees is open;
     exchange of ideas;                                           that management is aware of their role in the process;
                                                                                                                                 - provide employees with the tools and incentives they need to
     - incorporate customer feedback, as appropriate; and,        - establish common OIG standards for terminology, date
                                                                                                                                 adequately perform their duties.
     - be open to customer-generated solutions and                maintenance and communications.
     options.

                                                                  Objective E: Establish a positive and
                                                                  productive working environment.

                                                                  Strategy:
                                                                  - reengineer or streamline OIG procedures to achieve the
                                                                  most effective use of resources; and,
                                                                  - ensure that necessary technologies, evolving and
                                                                  otherwise, are made available to staff as needed.



     Performance Measures: Determine the
     timeliness and quality of products and                       Performance Measures: An annual audit                          Performance Measures: All employees meet
     services; their effectiveness in                             plan is issued; strategic plan is periodically                 the training requirements; all employees have
     promoting positive change; and, reach                        reviewed; and, necessary technology is                         performance standards; and all employees
     agreement with management on at least                        provided to staff to enable them to most                       meet the basic requirements for the position in
     90% of recommendations within six                            efficiently perform their duties.                              which they were hired to perform.
     months of the report issue date.                                                                                                                                           12



36
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
